      Department of Homeland Security




      Annual Report to Congress on States’ and Urban 

      Areas’ Management of Homeland Security Grant 

                 Programs Fiscal Year 2012 





OIG-13-18                                    December 2012

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                        DEC 21 2012


MEMORANDUM FOR:              David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Annual Report to Congress on States’ and Urban Areas’
                             Management of Homeland Security Grant Programs
                             Fiscal Year 2012

Attached for your action is our final report, Annual Report to Congress on States’ and Urban
Areas’ Management of Homeland Security Grant Programs Fiscal Year 2012. This report,
required by Public Law 110-53, Implementing Recommendations of the 9/11 Commission
Act of 2007, is a summary of 16 individual audit reports completed in fiscal year 2012. The
report summarizes the findings and recommendations made to the Federal Emergency
Management Agency, requiring the States and territories to take corrective actions to
improve their grant management programs.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II,
Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audits ................................................................................................................ 3

              State Strategic Planning Processes ........................................................................ 4

              State Oversight of Grant Activities ......................................................................... 6

              U.S. Virgin Islands as a High-Risk Grantee ........................................................... 14

              Unresolved Prior Recommendations ................................................................... 15

              Innovative Practice ............................................................................................... 17

   Appendixes
    

              Appendix A:          Objectives, Scope, and Methodology ........................................... 19 

              Appendix B:          Audit Reports Included in this Report .......................................... 20 

              Appendix C:          Scope of State Grant Program Management Audits .................... 22 

              Appendix D:          Report Distribution ....................................................................... 23 


   Abbreviations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              OIG                   Office of Inspector General
              SHSP                  State Homeland Security Program
              UASI                  Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                                OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants, and annually submit to Congress a report
   summarizing the results of those audits. This report responds to the annual reporting
   requirement and summarizes audits of 16 States and territories completed in fiscal year
   2012: Arizona, Arkansas, Colorado, Florida, Georgia, Kansas, Louisiana, Michigan,
   Minnesota, Montana, New Mexico, Ohio, Oklahoma, U.S. Virgin Islands, Utah (Urban
   Areas Security Initiative only), and Washington (Urban Areas Security Initiative only).

   The objectives of the State audits were to determine whether each State distributed and
   spent the grant funds (1) effectively and efficiently, and (2) in compliance with
   applicable Federal laws and regulations. We also addressed the extent to which grant
   funds enhanced the States’ ability to prevent, prepare for, protect against, and respond
   to natural disasters, acts of terrorism, and other manmade disasters. The audits
   included more than $924 million in State Homeland Security Program and Urban Areas
   Security Initiative grants awarded to the 16 States and territories during 3-year periods
   between fiscal years 2006 and 2010.

   In most instances, with the exception of the U.S. Virgin Islands, the States did an
   efficient and effective job of administering the grant program requirements in
   compliance with grant guidance and regulations. Additionally, we identified an
   innovative system that can be considered for use by other jurisdictions.

   Two major areas were identified for improvement: strategic planning and oversight of
   grant activities. We recommended that the Federal Emergency Management Agency
   (FEMA) consider designating the U.S. Virgin Islands as a high-risk grantee. We also
   documented instances of prior recommendations that had not been resolved, and
   identified more than $5.7 million in questioned costs. We made 130 recommendations
   addressing these areas. In its corrective action plans, FEMA concurred with 99 of the
   recommendations, concurred with the intent of 28 recommendations, partially
   concurred with 1 recommendation, did not concur with 1 recommendation, and did not
   address 1 recommendation.




www.oig.dhs.gov                                 1                                        OIG-13-18
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires DHS OIG to annually submit to Congress a report summarizing completed
   audits of State Homeland Security Program (SHSP) grants and Urban Areas Security
   Initiative (UASI) grants awarded to States, territories, and the District of Columbia. This
   report summarizes our fiscal year (FY) 2012 audits of the management of Homeland
   Security Grant Program funds awarded to 16 States, as indicated in table 1.1 Appendix B
   provides Internet links to the reports. Table 2 summarizes the status of audit
   recommendations for FY 2012.

   Table 1: Audits Included in This Report
                                    Fiscal Years          SHSP Grant Awards         UASI Grant Awards
               State
                                     Reviewed                   (000s)                    (000s)
       Arizona                      2007–2009                  $35,606                    $48,471
       Arkansas                     2008–2010                  $19,308                         $0
       Colorado                     2007–2009                  $29,235                    $22,518
       Florida                      2007–2009                  $96,659                   $111,536
       Georgia                      2008–2010                  $61,747                    $41,252
       Kansas                       2008–2010                  $21,424                         $0
       Louisiana                    2007–2009                  $40,385                    $18,817
       Michigan                     2007–2009                  $55,818                    $42,303
       Minnesota                    2007–2009                  $29,825                    $24,914
       Montana                      2007–2009                  $16,514                         $0
       New Mexico                   2007–2009                  $16,514                         $0
       Ohio                         2007–2009                  $64,477                    $48,351
       Oklahoma                     2006–2008                  $21,240                    $13,519
       U.S. Virgin Islands          2007–2009                   $4,550                         $0
       Utah (UASI)                  2008–2010                    N/A                       $7,639
       Washington (UASI)            2007–2009                    N/A                      $32,031
       TOTAL                                                   $513,302                   $411,351
   Source: DHS OIG.

   Appendixes A and C provide additional details on the purpose, scope, and methodology
   of this report and the State grant management audits.

   1
    The term “State” means any one of the 50 States, the District of Columbia, Puerto Rico, the Northern
   Mariana Islands, the Virgin Islands, Guam, American Samoa, and any other territory or possession of the
   United States.

www.oig.dhs.gov                                       2                                              OIG-13-18
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Results of Audit
   In most instances, with the exception of the U.S. Virgin Islands, the States did an
   efficient and effective job of administering grant program requirements in compliance
   with grant guidance and regulations. We also identified an innovative system that can
   be considered for use by other jurisdictions.

   Two major areas for improvements were identified in the audit reports: strategic
   planning and oversight of grant activities. We recommended that FEMA consider
   designating the U.S. Virgin Islands as a high-risk grantee. We also documented instances
   of prior recommendations that had not been resolved, and identified more than
   $5.7 million in questioned costs. We made 130 recommendations to FEMA that, when
   implemented, should strengthen program management, performance, and oversight. In
   its corrective action plans, FEMA concurred with 99 of the recommendations, concurred
   with the intent of 28 recommendations, partially concurred with 1 recommendation, did
   not concur with 1 recommendation, and did not address 1 recommendation. The
   recommendations will remain open pending completion of corrective actions by FEMA.

   Table 2: Status of Audit Recommendations2
                                                             FEMA Concurrence           Status:
                  Areas for Improvement             Issued
                                                                Yes    No             Open Closed
       I. State Strategic Planning Processes
       Fully measurable and achievable goals and
                                                      20        20         0          19          1
       objectives
       Long-term capability sustainment options       3         3          0           2          1
       Prioritize strategic goals and proposed
                                                      2         2          0           2          0
       projects
       Subtotal                                       25        25         0          23          2




   2
    Concurrence includes “concur with intent” and partial concurrence. In addition, one recommendation
   not addressed by FEMA was subsequently resolved and closed, and is considered a concurrence.

www.oig.dhs.gov                                       3                                           OIG-13-18
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                                                               FEMA Concurrence     Status:
               Areas for Improvement                  Issued
                                                                  Yes    No       Open Closed
    II. State Oversight of Grant Activities
    Allocation, obligation, and expenditure of
                                                        8        7        1       8        0
    grant funds
    Monitoring of subgrantee activities                29        29       0       15      14
    Oversight of financial management,
                                                       27        27       0       17      10
    reporting, and costs
    Compliance with procurement and property
                                                       19        19       0       15       4
    management requirements

    Subtotal                                           83        82       1       55      28

    III. U.S. Virgin Islands as a High-Risk Grantee    22        22       0       17       5

    Total                                              130      129       1       95      35

   Source: DHS OIG.

            State Strategic Planning Processes

            The States’ strategic planning processes contained weaknesses in fully
            measurable goals and objectives, sustainment options, and priorities.

            Fully Measurable and Achievable Goals and Objectives in State Homeland
            Security Strategies

            The Homeland Security Strategies for Arkansas, Florida, Georgia, Kansas,
            Louisiana, Minnesota, Montana, New Mexico, U.S. Virgin Islands, and
            Washington did not include some or all of the elements necessary for a
            successful Homeland Security Strategy, such as specific, measurable, achievable,
            results-oriented, and time-limited goals and objectives.

            Minnesota and New Mexico had outdated Homeland Security Strategies.
            Minnesota’s Homeland Security Strategy was limited in its effectiveness because
            it was last updated January 18, 2008, but referred to a comprehensive risk,
            capabilities, and needs assessment completed in October 2003. The strategy
            stated that an “updated assessment will be accomplished during calendar year
            2006,” but an assessment update was not performed.

            New Mexico developed a 3-Year Domestic Preparedness Strategy in January
            2003 that did not contain current and specific goals, objectives, and performance
www.oig.dhs.gov                                        4                                   OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           measurements that was never updated. FEMA requested an update for the
           State strategy in FY 2005, and New Mexico developed a draft, but it was never
           approved.

           Without fully measurable and achievable goals and objectives, and performance
           measurements, these States did not have a basis to evaluate the effect of grant
           expenditures on their preparedness and response capabilities, or when making
           funding and management decisions.

           Long-term Capability Sustainment Options

           Florida and Minnesota did not have contingency plans to address potential
           funding shortfalls in the event of significantly reduced or eliminated DHS
           funding. Funding shortfalls could put critical programs intended to respond to
           terrorist acts and various catastrophes at risk.

           Florida did not have contingency plans for some SHSP-funded projects in the
           event of reduced or eliminated Federal funding. Sustainability is a critical factor
           that impacts Florida’s overall preparedness capabilities, and one that Florida has
           placed little emphasis on as a ranking factor when prioritizing SHSP projects. As
           a result, the long-term sustainment of capabilities and the completion of
           projects funded by multiyear contracts may be in jeopardy in the event of
           significantly reduced or eliminated Federal funding.

           Minnesota did not have a viable contingency plan for its fusion center, and had
           not been able to obtain a commitment from its legislature to fund fusion center
           operations in the event of reduced or eliminated Federal grant funding. State
           Administrative Agency officials said that funding contributed by other fusion
           center stakeholders, including local law enforcement agencies, would not be
           sufficient to sustain operations. Without continued Federal grant funding, the
           capability of fusion centers to help develop and maintain information sharing
           and intelligence to law enforcement agencies could be lost.

           Prioritize Strategic Goals and Proposed Projects

           Michigan and Washington did not prioritize all proposed projects submitted by
           counties and regions as part of their strategic planning process. According to
           FEMA guidance, grant funds must be used to achieve the goals, objectives, and
           priorities of the UASI strategy.



www.oig.dhs.gov                                 5                                        OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Michigan’s funding allocation method did not appear to maximize financial
           assistance to meet the needs of the urban areas with the highest threat and
           population density. According to Michigan officials, all counties in the UASI
           region received a baseline amount before risk-based allocations were made.
           This funding model, which included regional, baseline, and risk-based allocations,
           resulted in areas with the largest populations and potentially highest risk
           receiving a less-than-proportionate share of UASI funds.

           Washington had not implemented a process to ensure that the urban area
           strategy was reviewed and updated periodically to reflect current goals,
           objectives, and priorities. Consequently, it relied on a ranking and project
           prioritization process that was disconnected from the strategy. Project funding
           within the urban area was not focused on the highest priorities as described by
           the strategy, making the strategy irrelevant. Instead, the annual rankings
           became an ad hoc strategy that focused only on the current year.

           State Oversight of Grant Activities

           States needed to improve in four areas of oversight of grant activities.
           Specifically, they (1) were not effective in their allocation, obligation, and
           expenditure of funds to subgrantees; (2) did not monitor subgrantee
           performance to ensure enhancement of terrorism prevention, response,
           recovery, and mitigation capabilities; (3) were not effective and efficient
           stewards of Federal grant funds, including expenditures, costs, and financial
           management; and (4) did not comply with property and procurement
           management requirements.

           Allocation, Obligation, and Expenditure of Grant Funds

           Allocation, obligation, and expenditure of grant funds are critical elements of
           grants oversight. However, Arkansas, Florida, Georgia, New Mexico, and Ohio
           did not allocate, obligate, or expend grant funds to subgrantees in a timely
           manner.

           Specifically, Arkansas, Florida, and Georgia did not obligate funds timely to
           subgrantees. In Arkansas, there was a lapse of 137 to 1,031 days between
           required obligation and availability of funds during FYs 2008 to 2010. Florida had
           some instances during FYs 2007 and 2008 in which obligations were more than
           400 days after the award date, and in FY 2009 it obligated funds between 44 and
           101 days late. Georgia did not make funds available for expenditure to
           subgrantees until as many as 261 days after the required date.

www.oig.dhs.gov                                  6                                      OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Additionally, Florida did not adequately calculate and award SHSP funds
           designated for local jurisdictions in FY 2009. In that year, FEMA program
           guidance stated that the State Administrative Agency must separately obligate at
           least 80 percent of SHSP and UASI funds to local units of government within
           45 days of receipt of the funds. Florida combined UASI and SHSP funds, and
           from the total it allocated 80 percent to local jurisdictions. This method resulted
           in less than 80 percent of the SHSP award being obligated to local recipients.
           The difference equates to approximately $2.9 million that local jurisdictions
           could have used to complete critical projects.

           During FYs 2008 through 2009, New Mexico withheld $2.5 million in SHSP grant
           funds from local units of government to provide training and exercises, without
           the required memorandums of understanding. By withholding a portion of the
           grant funds to centralize training and exercises for local units of government,
           New Mexico obligated less than the required amount to local units during FYs
           2008 and 2009.

           In FY 2007, 24 subgrantees and 4 State agencies we visited in Ohio, did not
           receive grant awards until an average of 8 months (between 3 and 22 months)
           after the State obligated the grant funds. For FY 2008, delays increased to an
           average of 10 months (between 6 and 30 months); for FY 2009, they increased to
           an average of 11 months. Four subgrantees did not receive FY 2009 grant
           awards by May 15, 2011—19 months after Ohio reported to FEMA that these
           funds were obligated. Eighteen of the 28 grant recipients requested an
           extension to the grant performance period because they needed more time to
           complete planned procurements and obtain reimbursements.

           Ohio did not always make payments to subgrantees for grant expenditures in a
           timely manner. A sample of 55 payment requests showed payments were made
           anywhere from 13 to 89 days after the requests were submitted to the State. As
           a result, local funds were often not reimbursed in a timely manner and vendors
           were not always paid timely for goods and services.

           Withholding grant funds from subgrantees may limit subgrantees’ ability to
           make purchase decisions regarding their most critical needs, and limits
           subgrantee input regarding training decisions. In addition, these issues caused
           noncompliance with the requirements and intent of Congress for the grant,
           which is to place control of the funds in the hands of local units of government.



www.oig.dhs.gov                                 7                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Monitoring of Subgrantee Activities

           Monitoring of grant performance and subgrantees’ adherence to Federal and
           State regulations needs to be improved in nine States because they do not have
           procedures to ensure consistent tracking of accomplishment made with grant
           funds, did not always ensure compliance with Federal laws and regulations, or
           had limited oversight.

           Arizona and New Mexico did not have procedures to track grant performance
           activity. Arizona did not ensure that After-Action Reports and Improvement
           Plans, critical management tools that document weaknesses identified by
           exercises and provide a basis to track corrective actions, were prepared. This
           could hamper the State’s ability to assess capability gaps and corrective actions
           needed to enhance its responder capabilities, and could waste resources by
           conducting exercises that do not focus on urban area preparedness deficiencies.

           New Mexico did not have a system or process or qualified personnel, to track
           accomplishments resulting from grant funds. State officials informed us that
           personnel are not trained on how to measure preparedness improvements, and
           the State had not hired additional personnel to address this function. Without
           performance monitoring, there is no reasonable assurance that program goals
           are accomplished and that purchased assets will enhance the State’s first
           responder capabilities.

           Washington had not implemented an assessment process to measure
           improvements in preparedness. Each year, the State reassessed its priorities
           without considering the performance improvement and attainment of objectives
           established in prior years. It had not fully incorporated the use of FEMA’s Target
           Capabilities List to measure improvements and identify gaps. This prevented the
           urban area’s accomplishments from being properly evaluated to ensure that the
           goals and objectives were being achieved, or that requested funding was still in
           line with the urban area’s real threats and vulnerabilities.

           Arkansas’ monitoring of subgrantees through desk reviews of budgets,
           payments, an inventory database, and After-Action Reports did not always
           ensure subgrantee compliance with Federal laws and requirements. It was only
           when auditors requested copies of review documents that Arkansas discovered
           that no subgrantees reviews were conducted during the FYs 2008 through 2010
           grant years. Consequently, some grant funds were being used for other than the
           intended purposes, such as a vehicle intended for use by the bomb response
           team being used by and labeled as the special weapons and tactics unit.

www.oig.dhs.gov                                8                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Colorado’s guidance to subgrantees did not provide sufficient grant
           administration information or program support to ensure compliance with
           Federal requirements. With the exception of activities such as grant
           reimbursement requests and modification procedures, Colorado’s written
           guidance did not adequately describe its expectations, methodologies, or
           functional administration requirements. Also, its guidance did not address
           requirements to ensure segregation of duties, nor did it suggest methods to
           accomplish it.

           Louisiana did not have adequate oversight to ensure that subgrantees complied
           with all Federal requirements. Louisiana’s monitoring processes were not
           sufficient to identify subgrantees’ non-compliance with Federal financial and
           equipment-related requirements. Of the 17 subgrantee financial records
           reviewed, 5 did not include required information such as records of
           expenditures, obligations, unobligated balances, and liabilities.

           Also in Louisiana, the New Orleans Urban Area did not have a regional multiyear
           training and exercise plan. The urban area relied on a University of New Orleans
           consortium to develop a plan; however, the consortium was abolished in 2009
           because of budget shortfalls. In December 2010, Texas A&M University selected
           the New Orleans UASI as a pilot site for its Training Needs Assistance Project,
           which should result in a fully developed multiyear training plan.

           Minnesota did not adequately monitor subgrantee activities for FYs 2007
           through 2009. It conducted only limited monitoring and did not have subgrantee
           program performance monitoring policies and procedures in place until
           December 31, 2009. As a result, Minnesota did not have adequate information
           to assess whether the subgrantees were using grant funds efficiently and
           effectively to accomplish program objectives, or whether the grants were
           managed in accordance with Federal requirements.

           Minimal oversight was accomplished in Montana through periodic contact with
           subgrantee staff, review of subgrantee grant applications, and processing of
           reimbursement requests. According to State officials, subgrantee site visits were
           not made during the grant years reviewed. Other weaknesses were identified in
           the State-required subgrantee progress report that described the activities
           accomplished, difficulties encountered, and funding used during the period. For
           example, Montana’s FY 2007 interoperability investment justification requested
           $3.7 million to meet five milestones; however, the progress reports for this grant
           did not indicate how well the funds were being spent, nor did the reports discuss
           the progress being made on particular milestones. Therefore, Montana funded

www.oig.dhs.gov                                9                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           activities without knowing the extent that prior funds had on the subgrantee’s
           ability to meet specific program goals.

           Oklahoma did not have an adequate system to document and analyze
           performance data related to the accomplishment of its Homeland Security
           Strategy goals and objectives. Data related to the progress made for ongoing
           projects were not always collected at the State level and not documented in a
           manner that would facilitate ongoing analysis and review of progress.

           Oversight of Financial Management, Reporting, and Costs

           FY 2012 audits revealed that States needed improvement in their financial
           management practices, performance and financial reporting, transfer of grant
           funds, management and administrative costs, or grant expenditure reviews.

           Financial Management Practices

           Montana did not comply with Federal grant financial management requirements.
           Deficiencies included incomplete subgrantee file information for award letters
           and supporting documentation for reimbursement requests, as well as
           inadequate coordination between the State Administrative Agency and the
           supporting administrative office responsible for paying subgrantee invoices.
           Montana had missing grant award letters that totaled $477,000 out of
           $3.4 million in awards selected for testing. It also had difficulty reconciling
           subgrantee award amounts with expenditures, and did not have supporting
           documentation for subgrantee reimbursement requests totaling $938,601.
           Because the State Administrative Agency did not exercise financial management
           of all subawards, including compliance with applicable Federal requirements, it
           was unable to determine the actual status of SHSP grant funding.

           In New Mexico, one subgrantee paid funds to a vendor for a data management
           system upgrade and related equipment before it received the services and
           equipment. The subgrantee advanced a total of $99,250, or 63 percent of the
           total contract price of $157,620. New Mexico reimbursed the subgrantee for the
           amounts advanced to this vendor; however, as of the date of the audit testing,
           the upgrades and equipment had not been received. We questioned the
           $99,250 advanced by the subgrantee.




www.oig.dhs.gov                               10                                      OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Performance and Financial Reporting

           Minnesota subgrantees did not submit the State-required quarterly financial
           status reports timely and did not always submit State-required quarterly
           progress reports. Minnesota relied on the subgrantee financial and progress
           information to generate the statewide financial status documents and determine
           the progress being made in using grant funds. Yet, five financial status reports
           exceeded the quarterly reporting requirement, with one report covering 28
           months.

           In addition, 5 of the 22 subgrantees visited did not submit progress reports from
           October 1, 2007, through June 30, 2010. For example, one subgrantee received
           $1.69 million of grant funds in FY 2007 and had spent $1.687 million by June 30,
           2010, but in that time it had not submitted any progress reports. As a result,
           Minnesota did not know the current status of subgrantees’ financial activities,
           the subgrantees’ progress in improving preparedness and response capabilities,
           or problems that could delay subgrantee projects.

           New Mexico did not submit timely and accurate Biannual Strategy
           Implementation Reports and Financial Status Reports to FEMA. Of the
           12 Biannual Strategy Implementation Reports submitted, 11 were submitted
           24 to 1,003 days late, and the amounts included in these reports were not
           accurate. Additionally, 8 of 27 Financial Status Reports were submitted late.

           Transfers of Grant Funds Between Projects

           In FYs 2009 and 2010, Utah changed the scope of several projects by transferring
           approximately $2.3 million in UASI grant funds between projects without prior
           approval from FEMA. Although the grant guidelines allowed these types of
           expenditures, FEMA should ensure that the State Administrative Agency submits
           budget change requests for all funding transfers between projects. This will help
           ensure that items purchased do not exceed approved amounts and are allowable
           under the grant guidelines.

           Monitoring of Grant Management and Administrative Costs

           Kansas and New Mexico did not identify and validate management and
           administrative costs in accordance with Federal and State requirements. A
           Kansas fiscal agent representing six of the seven homeland security regions could
           not provide supporting documentation for any of the $197,532 in management
           and administrative costs submitted to and reimbursed by the State from FY 2008

www.oig.dhs.gov                                11                                      OIG-13-18
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           through October 2011. Kansas decided to reimburse the fiscal agent for the
           maximum allowable amount of management and administrative costs without
           requiring support for these costs.
           New Mexico allocated $195,735 as management and administrative costs in FY
           2009, which was the 3 percent maximum allowed to the State. However, the
           State did not provide the detailed costs for the $195,735, and spread the amount
           among various budget line items without sufficient supporting documentation to
           identify what comprised each item.

           The absence of a procedure for determining the allocation of the management
           and administrative costs inhibits the user’s ability to identify the costs charged to
           the SHSP grants. In addition, the States may overstate the management and
           administrative costs at the time of the grant application.

           Grant Expenditure Reviews

           Minnesota did not have written policies and procedures to guide its financial
           review and did not always have documentation to support reimbursement
           approvals. As a result, the State could not ensure that grant expenditures were
           allowable, allocable, authorized, and in accordance with grant requirements. In
           two instances, approved reimbursement requests did not include invoices:
           (1) $392,000 for hand-held digital portable radios, and (2) $64,000 for a wireless
           x-ray system. Even though invoices were subsequently obtained from the
           subgrantees, the State Administrative Agency should not have approved the
           reimbursements without the appropriate documentation.

           Compliance With Procurement and Property Management Requirements

           The audits identified areas for most States to improve in complying with
           procurement and property management requirements.

           Procurement Weaknesses

           In Arkansas, 14 of 18 subgrantees did not (1) obtain an adequate number of
           qualified quotes or formal bids, (2) conduct a cost analysis, or (3) justify sole
           source procurements. Therefore, they did not adhere to Federal, State, and local
           procurement requirements. Of the 114 reviewed transactions, more than
           $1.2 million was questioned in 63 transactions for issues pertaining to rate
           quotes, cost analysis, sole source justifications, and formal bidding.



www.oig.dhs.gov                                 12                                        OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Georgia and some of its subgrantees did not ensure that Federal regulations
           were followed for equipment and services procured using Homeland Security
           Grant Program funds. For example, a subgrantee awarded a noncompetitive
           contract for $2.2 million to purchase communication equipment without a sole
           source justification. In another example, a contractor awarded a subcontract for
           $450,000 to a local university to update an inventory of food systems within the
           State, also without a sole source justification for awarding a noncompetitive
           subcontract. Although both the contractor and subcontractor are State entities
           and therefore are exempt from Federal competitive bidding requirements,
           Georgia law requires competitive bidding for this particular procurement.

           Ohio did not ensure that Federal regulations were followed for equipment and
           services procured with Homeland Security Grant Program funds. Even though
           other sources were available, Ohio made 76 noncompetitive procurements of
           the 85 procurements reviewed. Subgrantees did not prepare cost or price
           analyses for any of the procurements.

           Five of the 76 noncompetitive procurements from Ohio were specifically
           identified as sole source by the purchasing agent, and local procedures were
           followed to obtain approval. Fifty-five purchases were procured from suppliers
           in Ohio State Term Schedules, which are lists prepared and maintained by the
           Ohio Department of Administrative Services of approved manufacturers with
           products offered at “best prices” and specific State-required terms. Competition
           is not part of the process for suppliers to be placed on the Term Schedules.

           Purchasing directly from State Term Schedules may meet Ohio competition
           requirements; however, these purchases do not meet Federal procurement
           standards for fair and open competition for purchases in excess of $100,000.
           Federal regulations require that all prequalified lists of persons, firms, or
           products that are used in acquiring goods and services be current and include
           enough qualified sources to ensure maximum open and free competition. The
           items on the State Term website are not necessarily the best value, but rather
           are a list of suppliers that have qualified their products for the State Term
           Schedules.

           Property Management Weaknesses

           Of the 16 States reviewed in 2012, 6 had property management weaknesses,
           including the need for physical inventories; inaccurate, incomplete, and missing
           records; and no enforcement of the requirement for subgrantees to establish
           and maintain effective control and accountability systems.

www.oig.dhs.gov                               13                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           At one subgrantee location in Colorado, equipment purchased with grant funds
           was not properly marked with DHS tags, items were not entered on the
           inventory control sheet, and follow-up was not conducted to validate that the
           subrecipients had received equipment. Another subgrantee had difficulty
           providing an equipment list that correlated to our FYs 2007–2009 grant review
           period. At another location, listed property was assigned to individuals who did
           not have custody of the property. Another subgrantee did not maintain any kind
           of equipment list.

           In Louisiana, 7 of 16 subgrantees’ equipment property records did not include
           pertinent information such as acquisition dates, serial numbers, cost, or location.
           Inaccurate, incomplete, and missing records impede subgrantees’ ability to make
           sound management decisions regarding future equipment needs and may lead
           to duplicate purchases. In addition, there were no reasonable assurances that
           assets procured with Federal funds were adequately safeguarded to prevent
           loss, damage, theft, or abuse.

           Minnesota did not enforce the requirement that subgrantees establish and
           maintain effective control and accountability systems to (1) safeguard property
           procured with Homeland Security Grant Program funds or (2) provide assurances
           that the property was used solely for authorized purposes.

           Furthermore, Montana subgrantees did not always maintain property
           management records in accordance with Federal requirements. Property record
           requirements were not being followed at 14 of 22 subgrantees. As a result, the
           State did not have reasonable assurance that the assets procured with Federal
           funds were adequately safeguarded to prevent loss, damage, or theft.

           Oklahoma and Utah did not ensure that equipment purchased with Homeland
           Security funds was identified as purchased with DHS grants, to help deter theft
           or unauthorized use. In Oklahoma, 9 of 28 locations had various items such as
           interoperable equipment, emergency response vehicles, and surveillance
           cameras not labeled as purchased with Homeland Security Grant Program funds.
           In Utah, none of the items reviewed were marked.

           U.S. Virgin Islands as a High-Risk Grantee

           The U.S. Virgin Islands did not do an efficient and effective job of administering
           program requirements in accordance with grant guidance and regulations. Eight
           areas were identified for improvement: (1) strategic goals and objectives,
           (2) sole source procurement and management of contract deliverables,

www.oig.dhs.gov                                14                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           (3) financial management documentation, (4) property management controls
           and accountability, (5) use of purchased equipment, (6) procurement of training,
           (7) personnel time charges, and (8) filing financial reports. Because of the need
           for these improvements, we questioned approximately $1.2 million for specific
           items claimed and considered the entire $3.4 million drawn-down for FYs 2007,
           2008, and 2009 as potential questioned costs until the U.S. Virgin Islands
           provides adequate support for the funds.

           We concluded that FEMA should consider classifying the U.S. Virgin Islands as a
           high-risk grantee because of the numerous problems noted in our audit, as well
           as its history of noncompliance with the terms and conditions of grant awards
           and Federal regulations. The U.S. Virgin Islands’ non-compliance has been
           independently documented by various oversight organizations in single audit
           reports and FEMA monitoring reports, and the DHS OIG January 2012 audit.
           U.S. Virgin Islands officials were unaware of Federal requirements, did not
           maintain grant expenditure and procurement records, did not maintain an up-to­
           date strategy, and generally did not comply with the Federal grant requirements.
           In the absence of additional oversight or grant restrictions on the U.S. Virgin
           Islands, the noncompliance documented by this audit and other reviews will
           likely continue.

           The non-compliance by the State Administrative Agency in the administration of
           grants indicates that action is needed to force it to comply with grant
           requirements. We believed that designating the State Administrative Agency as
           high risk would be an effective way to force its compliance. As a high-risk
           grantee, the State Administrative Agency would be under greater oversight by
           FEMA to comply with Federal requirements.

           Unresolved Prior Recommendations

           Prior audits in Colorado, Georgia, Montana, and Ohio identified issues with
           grants management and made recommendations to correct the deficiencies.
           However, the audits conducted this fiscal year identified some of the same
           issues, as efforts to implement those recommendations had not been successful.
           The recurring issues are highlighted below; any corresponding recommendations
           made in the respective audit reports have been categorized in table 2 under the
           appropriate area for improvement.

           Colorado’s untimely onsite monitoring of subgrantees was previously reported in
           an OIG audit report from December 2007. It was recommended that Colorado
           improve its onsite monitoring of subgrantees. Colorado had submitted evidence

www.oig.dhs.gov                               15                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           of recent subgrantee monitoring visits and had established a grant monitoring
           schedule; however, during the preceding two-and-a-half years, Colorado issued
           monitoring reports for six of the nine All-Hazards regions and four State
           agencies.

           Our January 2008 audit of Georgia reported conditions similar to those that
           currently exist. The State monitored subgrantees through desk monitoring, site
           visits, and regular contact between subgrantees and program managers. The
           State used a financial and program monitoring guide based on field best
           practices that did not include all Federal grant requirements. As a result, these
           efforts did not always ensure subgrantee compliance with Federal laws and
           requirements, including inventory and procurement practices.

           The Montana Legislative Audit Division noted in its February 2010 Single Audit
           Report on State Administrative Agency management of homeland security grants
           that in FY 2008, the State Administrative Agency did not monitor any of its
           subgrantees, and recommended that the State Administrative Agency
           implement effective monitoring controls to ensure that its subgrantees comply
           with Federal requirements. However, the State Administrative Agency did not
           issue management decisions or require corrective action on five of the audit
           findings within the required timeframe.

           Minnesota’s Office of Legislative Audit reported in March 2009, and again in
           March 2010, that the Department of Public Safety had not documented its risk
           assessment for internal controls over (1) compliance with Federal single audit
           requirements, (2) its monitoring process that assesses the quality of internal
           controls over compliance with Federal single audit requirements, and (3) the
           quality of internal control performance over time. Until the weaknesses in
           internal controls over financial operations are corrected, the State
           Administrative Agency will continue to be noncompliant with requirements for
           efficient and effective administration of Federal awards through the application
           of sound management practices.

           In a previous audit of Ohio’s Homeland Security Grant Program examining
           FYs 2002 through 2004, OIG reported that the Ohio Emergency Management
           Agency did not have an adequate monitoring program. The report
           recommended that Ohio take several steps to remedy this situation, including
           implementing regular onsite monitoring. However, Ohio did not conduct
           monitoring visits to UASI and SHSP grant recipients for FYs 2007 through 2009
           grant awards, and had not implemented an onsite monitoring program.


www.oig.dhs.gov                                16                                       OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Furthermore, in Ohio, the February 2008 DHS OIG audit report identified the
           need for internal controls over equipment management and overall compliance
           with Code of Federal Regulations Title 44 §13.32. Although Ohio concurred with
           the February 2008 report’s recommendations and agreed to address the issue,
           the subgrantees we visited were not complying with the required property
           management standards, regarding written policies and procedures, complete
           inventory records, properly identifying equipment purchased with grant funds,
           and periodic inspections of such equipment. Consequently, property
           management controls were not in place, and there was no assurance that the
           location, condition, and availability of essential equipment will be known in the
           event of an emergency.

           We also reported in February 2008 that the State Administrative Agency did not
           ensure that Federal procurement regulations were followed for noncompetitive
           procurements, cost analyses were not performed for several noncompetitive
           procurements that exceeded $100,000, and subgrantees did not notify the
           agency before awarding noncompetitive contracts. Ohio officials agreed to
           perform cost analyses when high-value sole source contracts or contracts with
           inadequate competition are awarded, and said that the grant guidance will
           highlight and emphasize these requirements. The State will require that
           subgrantees notify the State Administrative Agency before undertaking high-
           value sole source procurements. The December 2011 audit report identified the
           same problems.

           Innovative Practice

           During these performance audits, a potentially innovative system was identified
           for possible use by other States and jurisdictions. We believe that FEMA should
           consider evaluating its potential benefits to help improve grant management
           and preparedness.

           The Jacksonville, Florida, UASI measured improvements in preparedness by
           evaluating its capabilities through gap analyses that are based on measured
           outcomes and an assessment of future needs. The Jacksonville UASI conducts an
           annual gap analysis that provides up-to-date information on the UASI’s current
           state of preparedness based on funding allocations. The gap analysis measures
           progress through readiness indicators (i.e., target capabilities list) and
           quantifiable data (i.e., spending trends) to identify gaps in planning, training,
           exercise, and equipment. Each year, the UASI Urban Area Working Group
           Strategy and Initiatives Committee prioritizes the target capability list, using a
           tier system based on risk to the urban area. The prioritization results are then

www.oig.dhs.gov                                17                                      OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           implemented immediately and incorporated into the Jacksonville UASI project
           worksheets and project scoring sheets for the next grant cycle processes.
           The gap analysis process also includes capability-based planning sessions, held by
           the Strategy and Initiatives Committee staff, to measure target capabilities and
           implementation tasks from the Jacksonville UASI Strategy. Each goal, objective,
           and implementation task is measured by Metropolitan Statistical Area
           completion percentages (0 percent, 25 percent, 50 percent, 75 percent, and
           100 percent) based on risks to the urban area. Through this process, the
           Jacksonville UASI can identify gaps by assessing and cataloging the risks the UASI
           faces and the capabilities it has or will need to mitigate those risks. The gap
           between the risk and the capabilities will determine the UASI’s homeland
           security needs going forward and should form the basis for funding allocation.




www.oig.dhs.gov                                18                                      OIG-13-18
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The purpose of this report, prepared in accordance with Public Law 110-53,
   ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff2007,fwas to assess and
   summarize the audit reports completed during FY 2012 on SHSP and UASI grants
   awarded to States, territories, and the District of Columbia. Specifically, we were to
   determine (1) the number of audits conducted and completed; (2) whether findings are
   applicable to the mandate; (3) whether the funds awarded were used in accordance
   with the law, program guidance, and State homeland security plans and other applicable
   plans; and (4) the extent to which funds awarded enhanced the ability of a grantee to
   prevent, prepare for, protect against, and respond to natural disasters, acts of terrorism
   and other manmade disasters.

   The audit reports included in this annual consolidated report to Congress were the
   result of 16 audits conducted by OIG and by independent public accounting firms under
   contract to OIG. Appendix B provides citations and Internet links to each report.

   The audits summarized in this report were conducted pursuant to the InspectorfGeneralf
   Actfoff1978, as amended, and according to generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based upon our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based upon our audit
   objectives. No additional audit work was performed in preparing this report.




www.oig.dhs.gov                               19                                       OIG-13-18
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix B
   Audit Reports Included in this Report
                                                 Report       Date
                     Report                                                     Internet Link
                                                 Number      Issued
    The State of Louisiana’s Management of      OIG-12-03   11/07/11   http://www.oig.dhs.gov/assets/
    State Homeland Security Program and                                Mgmt/OIG_12-03_Nov11.pdf
    Urban Areas Security Initiative Grants
    Awarded During Fiscal Years 2007
    through 2009
    The State of Colorado’s Management of       OIG-12-04   11/07/11   http://www.oig.dhs.gov/assets/
    State Homeland Security Program and                                Mgmt/OIG_12-04_Nov11.pdf
    Urban Areas Security Initiative Grants
    Awarded During Fiscal Years 2007
    through 2009
    The State of Oklahoma’s Management          OIG-12-11   11/21/11   http://www.oig.dhs.gov/assets/
    of State Homeland Security Program and                             Mgmt/OIG_12-11_Nov11.pdf
    Urban Areas Security Initiative Grants
    Awarded During Fiscal Years 2006
    through 2008
    The State of Florida’s Management of        OIG-12-13   11/23/11   http://www.oig.dhs.gov/assets/
    State Homeland Security Program and                                Mgmt/OIG_12-13_Nov11.pdf
    Urban Areas Security Initiative Grants
    Awarded During Fiscal Years 2007
    through 2009
    The State of Minnesota’s Management         OIG-12-14   11/29/11   http://www.oig.dhs.gov/assets/
    of State Homeland Security Program and                             Mgmt/OIG_12-14_Nov11.pdf
    Urban Areas Security Initiative Grants
    Awarded During Fiscal Years 2007
    through 2009
    The State of Montana’s Management of        OIG-12-16   12/09/11   http://www.oig.dhs.gov/assets/
    State Homeland Security Program                                    Mgmt/OIG_12-16_Dec11.pdf
    Grants Awarded During Fiscal Years
    2007 through 2009
    The State of Ohio’s Management of           OIG-12-17   12/13/11   http://www.oig.dhs.gov/assets/
    State Homeland Security Program and                                Mgmt/OIG_12-17_Dec11.pdf
    Urban Areas Security Initiative Grants
    Awarded During Fiscal Years 2007
    through 2009
    The State of Washington’s Management        OIG-12-27   01/20/12   http://www.oig.dhs.gov/assets/
    of Urban Areas Security Initiative Grants                          Mgmt/OIG_12-27_Jan12.pdf
    Awarded During Fiscal Years 2007
    through 2009
    The U.S. Virgin Island’s Management of      OIG-12-29   01/30/12   http://www.oig.dhs.gov/assets/
    State Homeland Security Program                                    Mgmt/OIG_12-29_Jan12.pdf
    Grants Awarded During Fiscal Years
    2007 through 2009

www.oig.dhs.gov                                      20                                          OIG-13-18
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                              Report        Date
                    Report                                                    Internet Link
                                              Number       Issued
    The State of Arizona’s Management of     OIG-12-61    03/23/12   http://www.oig.dhs.gov/assets/
    Urban Areas Security Initiative Grants                           Mgmt/2012/OIG_12­
    Awarded During Fiscal Years 2007                                 61_Mar12.pdf
    through 2009
    The State of New Mexico’s Management     OIG-12-102   07/26/12   http://www.oig.dhs.gov/assets/
    of State Homeland Security Program                               Mgmt/2012/OIG_12­
    Grants Awarded During Fiscal Years                               102_Jul12.pdf
    2007 through 2009
    The State of Georgia’s Management of     OIG-12-110   08/03/12   http://www.oig.dhs.gov/assets/
    State Homeland Security Program and                              Mgmt/2012/OIGr_12­
    Urban Areas Security Initiative Grants                           110_Jul12.pdf
    Awarded During Fiscal Years 2008
    Through 2010
    The State of Michigan’s Management of    OIG-12-114   08/30/12   http://www.oig.dhs.gov/assets/
    State Homeland Security Program and                              Mgmt/2012/OIG_12­
    Urban Areas Security Initiative Grants                           114_Aug12.pdf
    Awarded During Fiscal Years 2007
    through 2009
    The State of Arkansas’ Management of     OIG-12-116   09/07/12   http://www.oig.dhs.gov/assets/
    State Homeland Security Program                                  Mgmt/2012/OIG_12­
    Grants Awarded During Fiscal Years                               116_Sep12.pdf
    2008 Through 2010
    State of Kansas’ Management of State     OIG-12-122   09/14/12   http://www.oig.dhs.gov/assets/
    Homeland Security Program Grants                                 Mgmt/2012/OIG_12­
    Awarded During Fiscal Years 2008                                 122_Sep12.pdf
    Through 2010
    The State of Utah’s Management of        OIG-12-124   09/14/12   http://www.oig.dhs.gov/assets/
    Urban Areas Security Initiative Grants                           Mgmt/2012/OIG_12­
    Awarded During Fiscal Years 2008                                 124_Sep12.pdf
    Through 2010
   Source: DHS OIG. 





www.oig.dhs.gov                                    21                                          OIG-13-18
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Scope of State Grant Program Management Audits
   The purpose of each State audit was to determine whether the State distributed and
   spent SHSP and UASI grant funds (1) effectively and efficiently and (2) in compliance
   with applicable Federal laws and regulations and DHS guidelines. We were to also
   address the extent to which grant funds enhanced the State’s ability to prevent, prepare
   for, protect against, and respond to natural disasters, acts of terrorism, and other
   manmade disasters.

   The scope of the audits included the plans developed by the States and urban areas to
   improve preparedness and all-hazards response, the goals set within those plans, the
   measurement of progress toward the goals, and the assessments of performance
   improvement that result from this activity. Furthermore, the scope included an
   assessment of these activities within the context of risk to determine whether the
   States’ plans produced strategic performance improvements related to the areas of
   highest risk, rather than merely producing improvements in a broader sense.

   The entire Homeland Security Grant Program and its interrelated grant programs fund a
   range of preparedness activities, including planning, organization, equipment purchase,
   training, exercises, and management and administration costs. Because of the
   interrelationship of these grant programs, all were considered when evaluating the
   planning cycle and the effectiveness of the overall grant program. However, only SHSP
   and, where applicable, UASI funding, equipment, and supported programs were
   reviewed for compliance.

   The scope of the audits included SHSP and UASI grants, where applicable, for FYs 2006
   through 2008, FYs 2007 through 2009, or FYs 2008 through 2010. Appendix B lists
   specific years for individual States.




www.oig.dhs.gov                              22                                      OIG-13-18
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  23                        OIG-13-18
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
